                   Department of Justice
                       United States Attorney Stephen R. Wigginton
                                Southern District of Illinois

______________________________________________________________________________

FOR IMMEDIATE RELEASE                                            CONTACT: James L. Porter
MONDAY, OCTOBER 3, 2011                                          PHONE: (618) 628-3700
WWW.JUSTICE.GOV/USAO/ILS/


                    FAIRVIEW HEIGHTS WOMAN PLEADS GUILTY
                           TO SOCIAL SECURITY FRAUD

       Delores Ann Holton, 60, of Fairview Heights, Illinois, plead guilty in federal district court
in East St. Louis on September 30, 2011, to a one count indictment charging concealment of material
information from the Social Security Administration, the United States Attorney for the Southern
District of Illinois, Stephen R. Wigginton, announced today. The United States is seeking restitution
of $55,467.50 for the disability benefits that Holton should not have received. Holton accomplished
this fraud on the Social Security Administration by using, with various employers, from 2002
through 2008, a different social security number than the social security number under which she
received disability benefits. Years ago, Holton had been confronted with her use of two social
security numbers, and had agreed, in writing, to use only the social security number under which her
disability benefits were paid. This offense has a maximum possible sentence of five years’
imprisonment, a $250,000 fine, a $100 special assessment, and three years’ supervised release
following imprisonment. Sentencing is set for January 30, 2012.
       The case was investigated by agents of the Social Security Administration Office of Inspector
General. The prosecution is assigned to Assistant United States Attorney Michael Quinley.


                                                ###
